USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 1 of 21

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4575

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JAMES DANIEL ARBAUGH,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of Virginia, at
Harrisonburg. Elizabeth Kay Dillon, District Judge. (5:17-cr-00025-EKD-l)

Decided: February 20,2020

Argued: December 10,2019

Before KING, AGEE and RICHARDSON, Circuit Judges.

Affirmed in part and vacated and remanded in part by published opinion. Judge Agee
wrote the opinion, in which Judge King and Judge Richardson joined.

ARGUED: Erin Margaret Trodden, OFFICE OF THE FEDERAL PUBLIC DEFENDER,
Harrisonburg, Virginia, for Appellant. Laura Day Rottenborn, OFFICE OF THE UNITED
STATES ATTORNEY, Roanoke, Virginia, for Appellee. ON BRIEF: Frederick T.
Heblich, Jr., Interim Federal Public Defender, OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Charlottesville, Virginia, for Appellant. Thomas T. Cullen, United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Roanoke, Virginia, for
Appellee.

APPENDIX A

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:2of21

AGEE, Circuit Judge:
James Daniel Arbaugh appeals the procedural and substantive reasonableness of his
sentence for engaging in illicit sexual conduct with a minor in a foreign country, in
violation of 18 U.S.C. § 2423(c) and (e). On review, we conclude the district court did not
err in applying a 2-offense-level enhancement to the Guidelines calculation based on undue
influence resulting from the age disparity between Arbaugh and his victim under U.S.S.G.
§ 2G1.3(b)(2). We further conclude that the court adequately explained the basis for
Arbaugh’s terms of imprisonment and supervised release and that its decision to impose a
276-month term of imprisonment was substantively reasonable. But we hold that the
district court procedurally erred by failing to explain the reasons for imposing four
computer-related special conditions of release. Accordingly, we affirm the judgment and
sentence of the district court except for the four challenged conditions of supervised
release, which we vacate and remand for partial resentencing.

I.
Arbaugh, a resident of Virginia, spent extended time in Haiti ostensibly for
missionary work on behalf of his church. Over a period of several years, he also sexually
abused approximately two dozen Haitian minor children. After a woman from Arbaugh’s
church witnessed him engaged in something “very disturbing” while they were together in
Haiti, the woman’s husband confronted Arbaugh via email. J.A. 24. In response, Arbaugh
returned to the United States and began meeting with a counselor with the support of his
church. At first Arbaugh disclosed only that he had engaged in homosexual conduct, but
2

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 3 of 21

eventually he admitted to the counselor that he had sexually abused minor children and the
counselor then reported him to law enforcement.1
Over the course of three separate interviews with law enforcement, Arbaugh
described what he had done and provided them with names, locations, and dates. Although
he had a return trip to Haiti scheduled, Arbaugh voluntarily surrendered his passport. He
also consented to a search of his computer, which disclosed no child pornography, though
the photographs of his time in Haiti included photos of his victims.
In December 2017, Arbaugh was indicted in the U.S. District Court for the Western
District of Virginia on one count of knowingly traveling in foreign commerce to engage in
illicit sexual conduct with “Minor Victim #1,” in violation of 18 U.S.C. § 2423(c) and (e).
Minor Victim #1 is the son of a pastor in Haiti that Arbaugh had known for years. When
his victim was five or six years old, Arbaugh touched the minor’s genitals with his hands
“and maybe his mouth.” J.A. 249.
Arbaugh pleaded guilty without the benefit of a written plea agreement and the
district court ordered the preparation of a pre-sentence report (“PSR”).
At sentencing, Arbaugh objected to the PSR’s inclusion of a two-offense-level
enhancement for undue influence of a minor under U.S.S.G. § 2G1.3(b)(2)(B), arguing that

1 The record indicates that Arbaugh was not initially forthcoming with either his
church or his counselor regarding the nature or scope of his behavior. He eventually
admitted to a church leader that he had molested a minor child in Haiti, which led the
church leadership to contact an attorney to determine whether anyone at the church was
required to report Arbaugh’s conduct to law enforcement. At the same time, Arbaugh’s
counselor confronted him about whether he had committed sexual acts with minors and
Arbaugh admitted that he had.
3

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:4of21

his victim’s age was already accounted for by other aspects of his Guidelines calculation
and that imposing this enhancement based solely on an age disparity resulted in
impermissible double counting. The district court overruled that objection, noting that
double-counting is allowed under the Guidelines unless expressly prohibited and “the
enhancement looks not just at the age of the minor victim, but at the relative ages of the
victim and the defendant.” J.A. 253. After ruling on other aspects of the Guidelines
calculation not at issue on appeal, the district court determined Arbaugh’s offense level to
be 38, which, when coupled with his criminal history category of I, resulted in a Guidelines
range of 235 to 295 months’ imprisonment.
The district court then heard the parties’ arguments about an appropriate term of
imprisonment under 18 U.S.C. § 3553(a). The Government argued that Arbaugh’s offense
conduct, total number of victims over so many years under the guise of missionary work,
and equivocating statements about whether he recognized the true nature of his crimes all
warranted an upward variant sentence of 360 months’ imprisonment (the statutory
maximum). Arbaugh argued that the only reason the Government knew of his crimes was
because he had come forward and admitted them, meaning that he should be credited for
his disclosure of a crime. In addition, he argued that despite his crimes, he had done a
tremendous amount of positive work in Haiti, which should be considered alongside his
criminal acts. These circumstances, in his view, warranted a downward variant sentence.
The district court sentenced Arbaugh to a term of 276 months’ imprisonment,
slightly higher than the mid-range of the Guidelines calculation, and it imposed the
Guidelines-recommended term of lifetime supervised release. In explaining the sentence,
4

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:5of21

the district court pointed to, on the one hand, the heinousness of Arbaugh’s crime, his
targeting “the most vulnerable children,” and his failure to be fully forthcoming regarding
the full scope of his conduct. JA 239. On the other hand, the court determined that
Arbaugh’s offense was not the “worst of the worst,” pointing to the lack of threats or
violence and observing that Arbaugh had cooperated with law enforcement. J.A. 241. The
district court also imposed various special conditions of release, including certain
conditions requiring Arbaugh to submit to warrantless searches of his computer and related
devices and prohibiting him from owning encryption materials.
Arbaugh noted a timely appeal, and the Court has jurisdiction under 28 U.S.C. §
1291 and 18 U.S.C. § 3742(a).

n.
Arbaugh raises five challenges to his sentence on appeal, asserting: (1) the district
court committed procedural error by including a two-level enhancement based on age
disparity under § 2G1.3(b)(2); (2) it failed to adequately address the need to avoid
unwarranted sentence disparities when explaining its sentence under § 3553(a); (3) it
imposed a substantively unreasonable term of 276 months’ imprisonment; (4) it failed to
adequately explain its reasons for imposing a lifetime term of supervised release; and (5)
it failed to adequately explain why it imposed four restrictions related to computer usage
as special conditions of supervised release. We reject all but the last argument.
The Court “reviews a sentence for reasonableness,” United States v. Dios dado-Star,
630 F.3d 359,363 (4th Cir. 2011), “under a deferential abuse-of-discretion standard,” Gall
5

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:6of21

v. United States, 552 U.S. 38, 40 (2007). In undertaking this review, the Court first
considers whether the district court committed a “significant procedural error, such as . . .
improperly calculating!] the Guidelines range, . .. failing to consider the § 3553(a) factors,
... or failing to adequately explain the chosen sentence.” Id. at 51. If the Court “find[s] no
significant procedural error, [it] then considers] the substantive reasonableness of the
sentence imposed.” Dios dado-Star, 630 F.3d at 363 (internal quotation marks omitted).
This standard applies when considering a defendant’s term of imprisonment, his term of
supervised release, and any condition of that release. United States v. Armel, 585 F.3d 182,
186 (4th Cir. 2009).
A.
Arbaugh first asserts the district court erred in imposing a two-level enhancement
under § 2G1.3(b)(2)(B), Which applies if a participant “unduly influenced a minor to
engage in prohibited sexual conduct.” § 2G1.3(b)(2)(B). The commentary notes to that
provision state, in relevant part, that ‘there shall be a rebuttable presumption that
subsection (b)(2)(B) applies” “[i]n a case in which a participant is at least 10 years older
than the minor.” Id. cmt. n.3. And the notes explain that under these circumstances, “some
degree of undue influence can be presumed because of the substantial difference in age
between the participant and the minor.” Id.
Arbaugh contends that his victim’s age was already accounted for in calculating his
Guidelines range because the calculation started with § 2G1.3’s base offense level, winch
applies only to sex offenses involving minors, and included § 2G1.3(b)(5)’s enhancement
for conduct involving a minor under the age of twelve. Thus, Arbaugh asserts that applying
6

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:7of21

a § 2G1.3(b)(2)(B) additional enhancement based on age disparity would constitute
double-counting of the victim’s age. While Arbaugh acknowledges that double-counting
is generally permitted under the Guidelines, he contends it is not permitted in this
circumstance because it results from commentary that “expanded the scope of the
guideline” to encompass an age-related factor. Opening Br. 9. He also contends that the
Guideline commentary’s rebuttable presumption contradicts U.S.S.G.

§ 6A1.3’s

evidentiary standard by allowing the court to impose an undue-influence enhancement
based on no evidence that an undue influence existed. Lastly, he contends the rebuttable
presumption improperly shifts the burden of proving the sentencing enhancement to the
defendant despite the Court’s instruction that the Government bears the burden of proving
Guidelines-based sentencing enhancements.
When a defendant challenges the district court’s inclusion of a sentencing
enhancement to the Guideline calculation, we review the district court’s factual findings
for clear error and its legal conclusions de novo. United States v. Cox, 744 F.3d 305, 308
(4th Cir. 2014). At sentencing, the Government had to show by a preponderance of the
evidence that the Guidelines enhancement applied. United States v. Blauvelt, 638 F.3d 281,
293 (4th Cir. 2011).
We conclude that in calculating Arbaugh’s Guidelines range, the district court did
not err by including the § 2G1.3(b)(2)(B) enhancement because the Guidelines did not
“double count” the victim’s age and any overlap in age considerations was permitted. Socalled “double counting” occurs “when a provision of the Guidelines is applied to increase
punishment on the basis of a consideration that has been accounted for by application of
7

LISCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:8of21

another Guideline provision or by application of a statute.” United States v. Reevey, 364
F.3d 151,158 (4th Cir. 2004). By its plain terms, § 2G1.3(b)(2)(B) focuses on a different
aggravating factor (undue influence) than § 2G1.3 (minor victims) or § 2G1.3(b)(5)’s
enhancement (minor victim under the age of twelve). As such, subsection (b)(2)(B) does
not “consider” the same factor as these other Guideline provisions. To be sure, the
commentary to subsection (b)(2)(B) does bring age into the analysis, but it does so for a
different reason and in a different way than the other Guideline provisions. Rather than
focusing only on the victim’s age—as the other provisions do—the commentary relies on
the age disparity between the victim and the perpetrator of the offense. And it does so
because it is reasonable to presume that, in the absence of evidence to the contrary, “some
degree of undue influence” exists whenever an age disparity of at least ten years exists
between a minor and another participant in the prohibited sexual conduct. § 2G1.3(b)(2)(B)
cmt. n.3. In sum, neither the text of § 2G1.3(b)(2)(B) nor the commentary’s rebuttable
presumption consider the same factor already accounted for by another Guideline
provision, so double counting did not occur.
But even if some overlap exists, the Guidelines generally permit double counting
except where they “expressly prohibit it.” Reevey, 364 F.3d at 158. Nothing in the
Guidelines expressly prohibits enhancing a defendant’s offense level based on both
§ 2G1.3(b)(2)(B)’s rebuttable presumption and other provisions of § 2G1.3. Moreover, the
relevant commentary does not expand the scope of § 2G1.3(b)(2)(B). Instead, it explains a
circumstance in which the text of the provision operates (subject to evidence to the
contrary).
8

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg:9of21

Arbaugh’s argument that § 6A1.3 expressly prohibits § 2G1.3(b)(2)(B)’s rebuttable
presumption fares no better. Section 6A1.3 states that when a fact is disputed at sentencing,
parties should be given the opportunity to present information and the court can resolve
disputes by considering any “relevant information” without having to follow the Federal
Rules of Evidence, “provided that the information has sufficient indicia of reliability to
support its probable accuracy.” § 6A1.3. Nothing in § 6A1.3 prohibits the fact of age
disparity from constituting relevant and reliable evidence that undue influence exists. And,
in an appropriate case, where the defendant proffered evidence to rebut the presumption,
§ 6A1.3 would govern the district court’s determination of whether the disputed fact of
undue influence exists. But § 6A1.3 does not contradict the rebuttable presumption in
§ 2G1.3(b)(2)(B)’s commentary nor does it expressly prohibit the court from applying
(b)(2)(B)’s enhancement alongside other § 2G1.3 subsections.
The rebuttable presumption in § 2G1.3’s commentary notes does not improperly
shift the burden of proof away from the Government, which always bore the burden of
proving, by a preponderance of the evidence, any facts supporting the district court’s
finding that “undue influence” over a minor occurred as part of Arbaugh’s offense. See
United States v. Jones, 31 F.3d 1304, 1316(4thCir. 1994). That burden never shifted.
The Government sought to satisfy its burden at sentencing by offering the
undisputed fact that when Arbaugh was 30 years old, he engaged in sexual activity with a
victim who was five or six years old. That evidence of a more-than-two-decade age
f

disparity would support the district court’s finding of undue influence even apart from the
commentary’s rebuttable presumption. Regardless, the commentary similarly recognizes
9

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 10 of 21

the reasonable conclusion that, absent evidence to the contrary, evidence of at least a tenyear age disparity serves as evidence that “some degree of undue influence” existed.
§ 2G1.3(b)(2)(B) cmt. n.3. Allowing

defendants

the opportunity to rebut that

presumption—something Arbaugh did not attempt to do in this case—did not relieve the
Government of its ultimate burden.2
B.
Arbaugh next contends the district court failed to adequately address how its 276month term of imprisonment satisfies § 3553(a)’s goal of“avoid[ing] unwarranted sentence
disparities among defendants with similar records who have been found guilty of similar
conduct.” 18 U.S.C. § 3553(a)(6). Specifically, he contends the district court failed to
adequately respond to Arbaugh’s non-frivolous contention that he should be sentenced to
a lower term of imprisonment because his conduct was not as severe as the conduct at issue
in United States v. Bollinger, 798 F.3d 201 (4th Cir. 2015), as well as several other out-of­
circuit cases involving the same offense.
When a defendant offers non-frivolous reasons for imposing a sentence outside the
Guidelines range, “a district judge should address the party’s arguments and explain why
he has rejected those arguments.” United States v. Carter, 564 F.3d 325, 328 (4th Cir.

2 In a footnote, Arbaugh contends that shifting the burden to him violated his due
process and jury trial rights under the Fifth and Sixth Amendments, respectively. We do
not ordinarily entertain arguments made solely in a footnote because they lack the
development required by Federal Rule of Appellate Procedure 28, and we decline to do so
here. See Wahi v. Charleston Area Med. Ctr., Inc., 562 F.3d 599, 607 (4th Cir. 2009)
(holding that the appellant waived an argument raised only in a footnote in the opening
brief).
10

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 11 of 21

2009) (internal quotation marks omitted). But this admonition focuses on the whole of a
defendant’s argument and does not require the court to address every argument a defendant
makes, as we have held that district courts need not “robotically tick through § 3553(a)’s
every subsection.” United States v. Powell, 650 F.3d 388, 395 (4th Cir. 2011) (internal
quotation marks omitted). Instead, “[tjhe adequacy of the sentencing court’s explanation
depends on the complexity of each case ... [and] [t]he appropriateness of brevity or length,
conciseness or detail, when to write, what to say, depends upon the circumstances.” United
States v. Blue, 877 F.3d 513, 518 (4th Cir. 2017) (internal quotation marks omitted). At
bottom, we look to whether the sentencing court has said “enough to satisfy” us that the
court “has considered the parties’ arguments and has a reasoned basis for exercising [its]
own legal decision-making authority.” Id. (internal quotation marks omitted). And in a
routine case, where the district court imposes a within-Guidelines sentence, “the
explanation need not be elaborate or lengthy.” United States v. Hernandez, 603 F.3d 267,
271 (4th Cir. 2010).
On review, we can confidently state that the district court considered Arbaugh’s
argument in favor of a below-Guidelines sentence and imposed an individualized sentence
tailored to Arbaugh’s offense. For one thing, we rejected a nearly identical argument to the
one Arbaugh advances for reasons that are also applicable in this case in United States v.
Allmendinger, 706 F.3d 330 (4th Cir. 2013). That defendant argued his sentence was
procedurally unreasonable because the district court ‘Tailed to address Allmendinger s
argument that his sentence created an unwarranted disparity with those of similarly situated
defendants.” Id. at 343. We rejected this argument based on the general proposition that
11

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 12 of 21

although the district court must explain its reasons for choosing a particular sentence in
sufficient detail to assure the appellate court that it provided an individualized assessment
of the case before it, it is not required to “discuss each § 3553(a) factor extensively, but
need only provide a rationale tailored to the particular case at hand and adequate to permit
meaningful appellate review.” Id. (internal quotation marks omitted). We observed that
before sentencing Allmendinger the district court “heard extensive argument” from both
parties and provided a substantive “explanation for the sentence imposed,” which “left no
doubt regarding the court’s reasons for selecting the particular sentence that it did.” Id.
Therefore, we held that no procedural error occurred even though the court had not
specifically addressed § 3553(a)(6)’s need to avoid unwarranted sentencing disparities. Id.
Several factors particular to Arbaugh’s sentencing hearing cause us to reach the
same conclusion here. As in Allmendinger, the district court heard extensive argument on
the § 3553(a) factors and provided a substantial explanation for its sentencing decision that
allows us to review the reasonableness of its decision. That satisfied the district court’s
duty to provide an individualized assessment of the § 3553(a) factors that permits our
review. What’s more, although the court did not expound on the need to avoid unwarranted
sentencing disparities, it did not need to do so given the arguments Arbaugh had made to
the court regarding other cases. Specifically, Arbaugh cited Bollinger and the other cases
to argue that he should not be sentenced to the 300-month statutory maximum (as the
Government was urging). Arbaugh did not make any specific or detailed argument about
how these cases supported his view that he should receive a below-Guidelines sentence.
Based on the actual arguments Arbaugh had made to it, the court had nothing to explain to
12

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 13 of 21

him—he asked the court to consider the need to avoid unwarranted sentencing disparities
that would arise had it imposed a 300-month sentence and the court did not impose a 300month sentence. Further, we note that Bollinger does not support Arbaugh’s new argument
that the district court needed to explain how its sentence avoided unwarranted sentencing
disparities because that defendant received a sentence two years higher than Arbaugh’s
sentence. There is simply no substance to Arbaugh’s contention that the district court
needed to “address unwarranted sentencing disparities” by explaining why a defendant
with purportedly more egregious conduct under the same statute of conviction was
sentenced to a longer term of imprisonment than he was. Lastly, we note that although the
district court did not separately discuss § 3553(a)(6) in announcing its sentence, it
mentioned that factor was part of its sentencing decision and it clearly knew Bollinger well
and engaged Arbaugh’s counsel in detailed dialogue about how that case operated as a
comparator earlier in the sentencing hearing.
In sum, the district court did not commit reversible procedural error by failing to
address specifically how its sentence accomplished the objective of avoiding unwarranted
sentencing disparities.
C.
Arbaugh next argues his 276-month term of imprisonment is substantively
unreasonable because it is longer than the amount of time necessary to serve the purposes
of § 3553(a)(2), including affording adequate deterrence and protecting the public from
further crimes. In particular, he asserts that a sentence of this length will discourage
individuals from coming forward and honestly disclosing their criminal conduct. He
13

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 14 of 21

contends that the district court failed to credit him ‘for disclosing to law enforcement a
crime that would not otherwise have been discovered,” let alone prosecuted. Opening Br.
17. And Arbaugh suggests that his lengthy, mid-Guidelines sentence will not “deter[]
others from engaging in sexual misconduct abroad,” but instead will encourage
concealment and dishonesty. Opening Br. 19.
When considering the substantive reasonableness of a prison term, we “examine []
the totality of the circumstances to see whether the sentencing court abused its discretion
in concluding that the sentence it chose satisfied the standards set forth in § 3553(a).”
United States v. Mendoza-Mendoza, 597 F.3d 212, 216 (4th Cir. 2010). And in Rita v.
United States, 551 U.S. 338 (2007), the Supreme Court ‘held that an appellate court is
allowed to presume that a district court’s chosen sentence is substantively reasonable if it
is within a correctly calculated Guidelines range.” Mendoza-Mendoza, 591 F.3d at 216
(citing to Rita, 551 U.S. at351).
Here, it was reasonable for the district court to impose the term of 276 months’
imprisonment. The district court discussed the heinous nature of Arbaugh’s offense
conduct, which involved sexually assaulting a boy only five or six years old. In addition,
the court noted that the conviction was just one incident of many because Arbaugh had
sexually assaulted a number of minor boys over the course of many years in ways that
“involved some scheming and planning” and grooming of his victims, who were “the most
vulnerable children” given his role in their families and communities. J.A. 239. It
concerned the court that Arbaugh had previously expressed his belief that “the boys
appreciated [his acts] and he wanted to show them love,” and that he had attempted to
14

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 15 of 21

justify his conduct by suggesting that “some of his criminal conduct was acceptable in
Haitian culture.” J.A. 240. Further, the court considered mitigating factors in deciding what
sentence to impose, specifically expressing its belief that Arbaugh did not deserve the
statutory maximum because he had cooperated with law enforcement, indicated that he
wanted his victims to get help, and “significantly helped some people in Haiti,” and no
evidence existed to suggest that he had threatened any of his victims. J.A. 241. These
comments—and the court’s explanation as a whole-

onfirm the appropriateness of its

sentence under the § 3553(a) rubric and an appropriate exercise of discretion in weighing
the factors involved. See Jeffery, 631 F.3d at 679.
Lastly, we address a fundamental misunderstanding contained within Arbaugh’s
argument that other criminals will be deterred from cooperating with law enforcement
because he received such a lengthy sentence. In so arguing, Arbaugh misapprehends §
3553(a)(2)(B), which requires courts to consider ‘the need for the sentence imposed ... to
afford adequate deterrence to criminal conduct” as part of the sentencing decision. Arbaugh
argues on appeal that individuals who have already engaged in criminal conduct will be
deterred from coming forward if they fear facing lengthy terms of imprisonment, so the
district court should have imposed a lower sentence. That’s plainly not what the factor
entails, which is to deter individuals from engaging in criminal conduct in the first instance.
D.
Next, Arbaugh asks us to vacate and remand his sentence of lifetime supervised
release, asserting the district court failed to adequately explain the basis for a lifetime—as
opposed to a shorter—term. Because Arbaugh’s offense involved a sex crime with a minor
15

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 16 of 21

victim, he was subject to a statutory mandatory minimum of five years’ supervised release
and a maximum term of life. 18U.S.C. § 3583(k).lhe Sentencing Guidelines setthe same
range, with the associated policy statement recommending that sex offenders receive the
statutory maximum term of lifetime supervised release. U.S.S.G. § 5D1.2(b)(2) (Policy
Statement). In deciding the length of a term of supervised release, district courts must
consider many of the same § 3553(a) factors they consider in deciding a term of
imprisonment. See 18 U.S.C. § 3583(c) (requiring courts to consider the factors contained
in § 3553(a)(1), (a)(2)(B), (a)(2)(C), (a)(2)(D), (a)(4), (a)(5), (a)(6), and (a)(7)).
By arguing that his request for a five-year term of supervised release required the
district court to separately and directly address why it was imposing lifetime supervised
release, Arbaugh ignores the context of what he argued in the district court and how the
district court carried out its sentencing duties. Supervised release was mentioned a handful
of times by the parties and the district court and it was not the focal point of any extended
discussion. For example, in his briefing to the district court, Arbaugh argued that no term
of imprisonment was necessary and that a longer term of supervised release could
accomplish the same objectives. During the hearing, as part of his overall sentence request,
Arbaugh asked the district court to impose “a period of supervised release of five years,”
J.A. 225, but he did not make any separate § 3553(a) arguments related to supervised
release or why a five-year term was appropriate.
The district court did the same thing, announcing at the outset what Arbaugh’s terms
of imprisonment and supervised release would be and then addressing holistically how the
§ 3553(a) factors applied to his case. The court rejected Arbaugh’s contention that
16

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 17 of 21

supervised release alone would be an adequate sentence because it found that a substantial
term of imprisonment was appropriate. Lastly, at the conclusion of its announcement of
Arbaugh’s sentence, the district court asked the parties if either had “any objection to the
procedure by which the Court determined the sentence” and both parties indicated they had
no objections. J.A. 241.
Reading the record and the district court’s explanation for its sentence as a whole,
we readily conclude the district court did not commit procedural error in failing to more
specifically explain the basis for a lifetime supervised release sentence. As discussed in the
context of a term of imprisonment, “[wjhen rendering a sentence, the district court must
make an individualized assessment based on the facts presented,” applying “the relevant
§ 3553(a) factors to the specific circumstances of the case before it,” and “stat[ing] in open
court the particular reasons supporting its chosen sentence” such that this Court can
meaningfully review the sentence. Carter, 564 F.3d at 328 (internal quotation marks and
emphasis omitted). The district court did that here, announcing that it was imposing a term
of lifetime supervised release and then discussing how it—together with the term of
imprisonment it simultaneously announced—satisfied the § 3553(a) factors. No more was
required, particularly where the term was consistent with the Guidelines recommendation
and Arbaugh indicated he had no objections to the procedure the court used to sentence
him when specifically given the opportunity to ask for clarification or elaboration. See also
United States v. Helton, 782 F.3d 148, 154 (4th Cir. 2015); see also United States v.
Aplicano-Oyuela, 792F.3d 416, 424 (4th Cir. 2015).

17

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 18 of 21

E.
Arbaugh’s final argument is that the district court committed reversible procedural
error by failing to adequately explain why it imposed four special conditions of supervised
release related to computers despite Arbaugh’s offense not involving a computer and
despite the possibility that they might limit his future job prospects.3 At the sentencing
hearing, the district court ordered Arbaugh to comply with these special conditions, but it
did not explain why it was imposing them.
Just as with other parts of a sentence, the district court must adequately explain any
special conditions of supervised release. See Armel, 585 F.3d at 186. When the district
court has offered no explanation for the imposition of a special condition, “we have no
basis for determining whether they are reasonably related to the factors referred to in 18
U.S.C. § 3583(d)(1) and ‘involve no greater deprivation of liberty than is reasonably
necessary.’ 18 U.S.C. § 3583(d)(2).”/*/. (alteration in original). And in a decision issued

3 The four special conditions are:
[1] The defendant shall allow the probation officer or designee to conduct
random inspections, including retrieval and copying of data from any
computers, telephones, and personal computing devices that the
defendant possesses or has access to, including any internal or external
peripherals.
[2] The defendant shall allow the temporary removal of any computers,
telephones, and personal computing devices for a more thorough
inspection.
[3] The defendant shall not possess or use any data encryption technique or
program.
[4] The defendant shall purchase and use hardware and software systems that
monitor the defendant’s computer usage, if so directed by the probation
officer.
J.A. 959.
18

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 19 of 21

after Arbaugh’s sentence, we held that a district court’s failure to explain the reasons for
any special conditions to which the defendant would be subject upon release for life was
not harmless. United States v. Ross, 912 F.3d 740, 746 (4th Cir. 2019). We are constrained
by this precedent to conclude that Arbaugh had “a right to know why he faces special
conditions that will forever modify the course of his life, and the district court’s silence
violated his rights.” Id.
The Government’s arguments do not directly grapple with the district court’s silence
and our case law on this point. Instead, it asks the Court to affirm based on other areas of
the law and facts in the record that would support imposing the challenged special
conditions. But we are not permitted to substitute our assessment of the record for the
district court’s obligation to explain its rationale in the first instance. Id. The substantive
reasonableness of the conditions is a separate inquiry from the procedural reasonableness
of the hearing. Id. Further, the district court cannot fulfill its duty by generally referring to
the legal standards in § 3553(a)and § 3583(d), which govern how the court should exercise
its discretion in imposing any special conditions of release. Instead, the district court had
to explain what facts led to its decision to impose the computer-related special conditions
on this defendant. Id. at 745-46.4
Lastly, we reject the Government’s assertion that the special conditions are justified
by the fact that Arbaugh is required to register as a sex offender under the Sex Offender
Registration and Notification Act, which will separately subject him to similar conditions.

4 We express no view, one way or the other, as to the propriety of these special
conditions.
19

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 20 of 21

Although individuals who must register under that Act may be required to submit to
warrantless searches as part of their release, 18 U.S.C. § 3563(b)(23), the district court still
has discretion whether to require that condition and this discretion is governed by the
standards set out in § 3553(a)(1) and (a)(2). See § 3563(b) (stating “[t]he court may
provide, as further conditions of a sentence ... to the extent that such conditions are
reasonably related to the factors set forth in section3553(a)(1) and (a)(2) and to the extent
that such conditions involve only such deprivations of liberty or property as are reasonably
necessary for the purposes indicated in section 3553(a)(2).. . .”). Moreover, any separate
requirements flowing from the registration may change in the intervening years.
For these reasons, we are constrained to find that the district court committed
reversible procedural error by failing to explain why it imposed the four computer-related
special conditions. As such, “we cannot determine the reasonableness of the challenged
special conditions.” Armel, 585 F.3d at 186. We therefore vacate Arbaugh’s sentence only
as to the challenged special conditions of release. We remand for resentencing so that the
district court can decide whether to impose those conditions and, if so, to provide an
individualized assessment of its reasons for doing so in Arbaugh’s case.5

5 Although Arbaugh characterizes this issue in terms of a challenge to the procedural
reasonableness of the computer-related special conditions, some of his arguments also
questioned their substantive reasonableness. Given that we agree with him about
procedural error, we need not address the substantive argument.
20

USCA4 Appeal: 18-4575

Doc: 46

Filed: 02/20/2020

Pg: 21 of 21

m.
For the reasons set out above, we affirm Arbaugh’s sentence to 276 months’
imprisonment and to lifetime supervised release. We vacate his sentence only with respect
to the four challenged special conditions of release, and we remand for resentencing as to
those alone.
AFFIRMED IN PART
AND VACATED AND
REMANDED IN PART

21

'T,

V

;

UNITED STATES OF AMERICA v. JAMES DANIEL ARBAUGH
UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF VIRGINIA,
HARRISONBURG DIVISION
2018 U.S. Dist. LEXIS 122690
Criminal Action No. 5:17-cr-00025-001
July 23, 2018, Decided
July 23, 2018, Filed
■
__________•
Editorial Information: Subsequent History
!

Appeal dismissed by United States v. Arbaugh, 2019 U.S. App. LEXIS 4036 (4th Cir., Feb. ®>
2019)Decision reached on appeal by, Remanded by, in part United States v. Arbaugh, 2020 U.S, App.
LEXIS 5175 (4th Cir. Va., Feb. 20, 2020)

I

I
I

Counsel

{2018 U.S. Dist. LEXIS 1}For James Daniel Arbaugh, Defendant: Erin
Margaret Trodden, LEAD ATTORNEY, Federal Public Defenders Office, Western District of
Virginia - Charlottesville, ChaMottesv^lle^VA.^ ^^ Terrien, LEAD ATTORNEY, United

States Attorneys Office, Western District of Virginia, Harrisonburg, VA; Kaylynn N. Shoop,
U.S. Department of Justice, Criminal Division, Child Exploitation & Obscenity Section,
Washington, DC.
Judges: Elizabeth K. Dillon, United States District Judge:

i

I

Opinion
■

Opinion by:

Elizabeth K. Dillon
Opinion

!

MEMORANDUM OPINION
This matter is before the court on objections to the Presentence investigation Report (PSR) filed by
the United States and the defendant and upon the motion for a downward departure by the defendant
pursuant to U.S.S.G. § 5K2.16 for voluntary disclosure. The parties presented evidence and argued
the objections and the motion for departure at a sentencing hearing held June 13, 2018. The. hearing
was continued pending the court's ruling on these matters.
James Daniel Arbaugh, the defendant, pleaded guilty to a violation of 18 U.S.C. § 2423(c) andI (e).
He admitted that in or about 2016 and as a U.S. citizen, he traveled to Haiti and engaged in illicit
sexual conduct, as defined in 18 U.S.C. § 2423(f), with Minor Victim #1 (MV1). He admitted{2018
U.S. Dist. LEXIS 2} in his factual proffer that MV1 was under the age of twelve at the time. He told
agents that MV1 was approximately five years old at the time defendant touched MV1 s genitals with
his fingers and maybe his mouth and that the touching was skin to skin. He also told agents that he
had sexual contact with approximately 21 male minors between the years 2010 and 2017.
PSR Calculations
The PSR calculated the base offense level under U.S.S.G. § 2G1.3(a)(4) at 24. Pursuant to U.S.S.G.
§ 2G1.3(b)(4)(A), two levels were added for sexual contact. Because MV1 was approximately five
lydcases

1

©2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.
I

APPENDIX B

21992084
E

Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

